September 6, 2013

Mr. Donald Sampler
Acting Assistant to the Administrator
Office of Afghanistan and Pakistan Affairs
U.S. Agency for International Development

Dear Mr. Sampler:

Thank you for your memorandum dated July 30, 2013, regarding SIGAR’s recent alert letter
on the Southern Regional Agricultural Development (S-RAD) program, which was funded
and overseen by the U.S. Agency for International Development (USAID) and implemented
by International Relief and Development, Inc. (IRD). 1 In your memorandum, you note that
USAID disagrees with SIGAR’s findings regarding oversight, work plans, and program-funded
equipment and supplies.

The purpose of this letter is to provide additional information to support SIGAR’s
observations as detailed in our alert letter and to respond to those areas where USAID
disagrees with those observations.

Oversight
SIGAR is very concerned about USAID’s views regarding its oversight obligations. Your
assertion that USAID is not required to impose any additional restrictions on the recipients’
programs or projects other than what is required by 22 C.F.R. § 226.25 (f) is troubling.
Although a cooperative agreement is not a contract for purposes of the Federal Acquisition
Regulation, USAID’s own regulations require that cooperative agreements contain a range
of contractual obligations, including conditions, objectives, and reporting requirements. 2 In
other words, the use of a cooperative agreement does not absolve USAID of its obligations
to ensure that U.S. funds are properly spent and that the desired outcomes are actually
achieved. Your comments on this issue suggest that SIGAR may need to take a broader look
at USAID’s use and implementation of cooperative agreements in Afghanistan.

You also assert that USAID “led a robust interagency process to oversee the implementation
of the S-RAD program by IRD.” However, as our alert letter noted and your memorandum
acknowledges, the reporting requirements contained in the original cooperative agreement
were not followed. Under the August 2011 cooperative agreement, IRD was required to
submit a monitoring and evaluation plan; performance monitoring reports; and weekly,
quarterly, semi-annual, annual, and final program performance reports. USAID waived some
of these requirements because of the agreement’s short 1-year period of performance.

1
  SIGAR Alert 13-2, Southern Regional Agricultural Development Had Poor Coordination, Waste, and
Mismanagement, June 27, 2013.
2
  See, e.g. 22 C.F.R. § 226 and USAID ADS Chapter 303.
Moreover, the cooperative agreement was revised in July 2012—after it had been extended
to continue through October 15, 2012—resulting in the elimination of some of these
reports. Although you assert that the elimination of these reports did not result in missed
opportunities for program oversight, the frequency of reporting contained in the original
cooperative agreement would have provided USAID officials with additional, useful, and
more timely information to support their oversight of IRD’s activities.

Work Plans
You disagree with our observation that IRD was given flexibility to modify project activities
as long as the combined cost associated with the modifications did not exceed 10 percent of
the program’s total budget. At the same time, however, your memorandum does not
dispute that USAID granted flexibility to IRD. It only asserts that such flexibility is allowed
under federal regulations governing USAID budget and program plans. 3Our alert letter did
not claim that USAID violated federal regulations or any other requirements in granting IRD
such flexibility. It merely noted that such flexibility allowed IRD to purchase items not listed
in its work plan without specific USAID approval. Although we agree that USAID has the
ability to grant flexibility to its implementing partners to modify project activities within 10
percent of the project’s budget, such flexibility introduces additional risk that the
implementing partner may engage in activities that deviate from USAID officials’
instructions—something that IRD acknowledges occurred during the S-RAD program.

While your memorandum states that USAID disagrees with our observation that it did not
review and approve IRD’s work plan for S-RAD until 4 months after the start of the 1-year
program and after over half of the program’s initial budget had already been obligated, it
also acknowledges the delay and then describes the extensive work plan approval process.
Therefore, there is no basis for USAID’s disagreement with our factual observation that the
final work plan was not approved until substantial funds had already been obligated and
project activities were well underway.

With regard to our observation that one of the USAID officials involved in facilitating the
approval process of the work plan was a former IRD employee who joined USAID in July
2011—1 month prior to the award of the cooperative agreement, your memorandum notes
that USAID re-assigned the individual “within one week of the alleged appearance of
conflict-of-interest coming to USAID’s attention.” Your response to this important matter
fails to mention that USAID did not take any action on this conflict of interest until SIGAR
discovered this problem in the course of our review. By this time, despite signing a recusal
letter, this individual had already been substantially involved with the program, including
facilitating the approval of the S-RAD work plan in December 2011, according to several U.S.
officials.



3
    22 C.F.R. § 226.25

                                                                                              2
Equipment and Supplies
You indicate that USAID also disagrees with several of our observations regarding the
provision of farm tractors, solar panels, agricultural supplies such as tree saplings, and
irrigation pumps. Let me discuss each of these areas in turn:

    •   Farm Tractors. Your assertion that just because “tractors could not be located does
        not prove any actually are missing” is puzzling. If something cannot be located, it is,
        by any reasonable definition, “missing.” Simply because “these tractors are located
        in isolated places hard to reach for logistical and security reasons” does not refute
        our statement that the tractors could not be located. In addition, your
        memorandum notes that both four- and two-wheel tractors were specified in the
        program description of the cooperative agreement. However, as our alert letter
        accurately stated, the final work plan—approved, as noted above, 4 months after
        the cooperative agreement and after project activities had already begun—
        envisioned only the purchase of two-wheel tractors. 4
    •   Solar Panels. Although USAID argues the program was needed, we found this view
        was not universally shared among U.S. and Afghan officials. As our alert letter noted,
        IRD officials with whom we spoke stated that their decision to expand the provision
        of solar panels was based on their perceived need to reduce the use of generators
        powered by diesel fuel because IRD believes the price of diesel fuel will increase
        substantially in the future. However, some U.S. officials expressed objections to the
        solar panel distribution program, citing the potential for theft, resale, or use of the
        equipment for other than its intended purpose. Local Afghan officials also objected
        to the program, deeming it unnecessary.
    •   Agricultural Supplies. Your memorandum details the intended benefits of S-RAD’s
        tree sapling distribution activity, namely the restoration and rehabilitation of pre-
        existing fruit and nut orchards following damage or destruction resulting from
        counterinsurgency operations. However, it is unclear to us whether these benefits
        were achieved because, as our alert letter noted, some provincial reconstruction
        and district stabilization team officials told us that the sapling distribution program
        was destabilizing their areas due to perceived irregularities in the distribution
        process. In addition, while there may have been some benefits to the local economy,
        you do not explain why IRD paid nearly twice the average price for saplings quoted
        to district stabilization team representatives by local nurseries.
    •   Irrigation Pumps. We do not dispute USAID’s good intentions for re-distributing
        pumps purchased under S-RAD’s predecessor program—Afghanistan Vouchers for
        Increased Production in Agriculture-Plus (AVIPA-Plus). Nevertheless, it is still the
        case that USAID spent $6 million to store, disassemble, and then distribute power
        supplies for these pumps under the S-RAD program. Contrary to your assertion, our

4
 See USAID, Southern Regional Agricultural Development Program (S-RAD) Cooperative Agreement No. 306-
SOAG-306-05-00, August 27, 2011-August 26, 2012, December 11, 2011, p. 34.

                                                                                                        3
        alert letter did not state that it was IRD’s responsibility for preparing an
        environmental assessment as required 22 C.F.R. § 216. Although you state USAID
        completed an environmental assessment in September 2012, and regardless of
        whether it was USAID’s responsibility or not, IRD also prepared an environmental
        assessment in February 2011 after the pumps had already been purchased by the
        AVIPA-Plus program.5

Once again, thank you for your comments on our alert letter. We look forward to our
continued collaboration to ensure the most efficient and effective use of U.S. taxpayer
funds to support the reconstruction of Afghanistan.

Sincerely,




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction

Enclosure




5
 See International Relief and Development, Afghanistan Vouchers For Increased Production in Agriculture Plus
Environmental Assessment For Water Pumps Revised Distribution Plan Helmand, February 2011.

                                                                                                           4
                                                                                      July 30, 2013

John F. Sopko
Special Inspector General for Afghanistan Reconstruction

Reference: SIGAR Alert Letter 13-2

Dear Mr. Sopko:

Thank you for your letter of June 26, 2013, regarding USAID's management
of and International Relief & Development's (IRD) implementation of
activities under the Southern Regional Agricultural Development (S-RAD)
program. Below, please fmd our detailed responses to the assertions made in
the Alert Letter.

USAID Oversight

     • "USAID did not exercise effective oversight ofthe implementing
       partner" (SIGAR Alert Letter, p. I).

     • "We found that many ofthe instances of waste and mismanagement
       detailed above were allowed to occur because USAID did not exercise
       effective oversight ofIRD 's implementation ofapproved project
       activities or administration ofthe S -RAD program." (SIGAR Alert
       Letter, p. 5).

     • USAID 's monitoring ofIRD 's performance was limited because some
       of the required reports were waived. "USA/D's decision to waive
       these requirements limited the information it could have used to more
       proactively monitor IRD's implementation and mitigate waste and
       mismanagement for select project activities. " (SIGAR Alert Letter,
         p.6)

USAID's Response: USAID disagrees with these assertions.

USAID Jed a robust interagency process to oversee the implementation of the
S-RAD program by !RD. This process was deliberative, consultative and
highly responsive to stakeholder input. A key feature was placing 20 USAID


U.S. Agency for International Development   Tel: 202-216-6288 / 0700-108-001
Great Massoud Road                          Email: kabulusak:tintormation®usaid goy
Kabul, Afghanistan                          http://afllhanistan.usald goy
                                                    - 2-

field monitors close to intervention sites to provide real-time programmatic
oversight and feedback to USAID Kabul.

Other examples ofUSAID's judicious approach to oversight included:

A work-plan working group consisting of all key stakeholders was established
to select activities implemented under S-RAD. The stakeholders included the
Department of State, USDA, U.S. military and coalition forces, Afghan
Government, e.g., Provincial Governor and District level-office of the
Ministry of Agriculture, Irrigation, and Livestock (MAIL), and USAID.
    • An Alternate Agreement Officer Representative (AOR), based in the
       field, organized and chaired all working group meetings held at the
       regional platform level. He worked closely with the AOR based in
       Kabul to provide direction and oversight to the program.
    • USAID/K.abul designated at least one field officer or On-Site-Monitor
       (OSM) for each district where S-RAD activities were implemented.
       Devolution of authorities to the field was a deliberate USAID effort to
       place trained OSMs closer to activities being implemented. This effort
       was consistent with the wider USG commitment to increase the number
       of personnel at regional and district levels.
    • The OSMs prepared weekly reports ofS-RAD's activities in their
       respective districts. Information in these reports was incorporated into
       the Regional Command-South's (RC-South) written reports and
       conference calls to Kabul. Moreover, USAID worked consistently to
       strengthen reporting and communications between Kabul and all levels
       in the field. For example, the Mobile Outreach Support Teams (MOST)
       concept was unique to RC-South-it was introduced to support timely
       trouble shooting and problem-solving for OSMs at the District level. 1
   • The Provincial and District-level offices of the Ministry of Agriculture,
       Irrigation, and Livestock, along with the Provincial Governor (PG),
       provided concurrence on all S-RAD activities.
   • IRD met monthly with the regional platform and on an as-needed basis
       with the Provincial Governor to guarantee adequate program oversight.

Based on the feedback received from key stakeholders, program adjustments
were made on an as-needed basis to ensure that quality technical assistance
was being administered.

Concerning changing the number of required reports, the letter's assertions are
misleading. This one year program had robust reporting requirements as

1
  Senior Civilian Representative Note to the field dated November 25, 201 1, "Platform Points -
Reorganization of District Support Teams".
                                     -3-

follows: bi-weekly program performance reports, four quarterly program
performance reports, two semi-annual program performance reports, and a
final report of the cooperative agreement. Since, the second and fourth
quarterly reports captured similar information as the semi-annual and final
reports, the cooperative agreement was modified on July 23, 2012 to combine
and expand certain reports to reduce duplication of efforts. For example, the
fourth quarterly program performance report and the fmal report of the
cooperative agreement were combined and expanded thus eliminating the
need for two separate reports due at the same time with considerable
overlapping information. For similar reasons, the requirement for a semi-
annual report was met with an expanded second quarterly report; however,
USAID still required and received bi-weekly and quarterly reports. The
contents of these reports and the proactive monitoring provided by the OSMs
and the MOSTs ensured vigorous and effective USAID oversight. There were
no missed opportunities resulting from the administrative changes in reporting
requirements.

The SIGAR Alert letter provides no documentation to support the assertion
that "USAID did not exercise effective oversight of the implementing
partner." It would be helpful ifSIGAR could provide documentation that
supports this statement so USAID can respond in a specific manner

Work plan and Work plan Implementation

   • "First, in designing the cooperative agreement that it awarded to IRD,
     USAID did not incorporate sufficient requirements to ensure that its
     officials' preferences for the program would be followed. SpecifiCally,
     under the agreement, IRD was given the flexibility to modify project
     activities so long as the combined cost associated with the
     modifications did not exceed 10 percent ofthe program's total
     budget" (SIGAR Alert Letter, p. 5).

USAID's Response: USAID disagrees with this assertion.

Assistance instruments (grants and cooperative agreements) are premised on
US AID fmancial support for serving a public good. Therefore, it is inaccurate
to state that IRD's program was a USG requirement. Acquisitions (contracts)
are for stated requirements ofUSAID or any other federal department or
agency. In this instance, Title 22 Code ofFederal Regulation (CFR) 226.25(f)
is applicable to Cooperative Agreements under which recipients are allowed
budget flexibility unless USAID takes the extraordinary steps to restrict them.
                                     - 4-

USAID is not required to impose any additional restrictions on the recipients'
programs or projects other than what is required under 22 (CFR) 226.25(f).

§ 226.25, Revision of budget and program plans
(f) USAID may, at its option, restrict the transfer of funds among direct cost
categories or programs, functions and activities for awards in which the
Federal share of the project exceeds $100,000 and the cumulative amount of
such transfers exceeds or is expected to exceed 10 percent of the total budget
as last approved by the USAID Agreement Officer. USAID shall not permit a
transfer that would cause any Federal appropriation or part thereof to be used
for purposes other than those consistent with the original intent of the
appropriation."

   • "Second, USAID did not review and approve IRD's work plan for the
     S-RAD until December 30, 2011--4 months after the start ofthe 1-
     year program. By then, substantia/funds-about $44 million ofthe
     nearly $70 m illion initially budgetedfor the program-had already
     been obligated and project activities were well underway." (SIGAR
     Alert Letter, p. 5).

USAID's Response: USAID disagrees with this assertion.

This assertion does not take into account the complete facts. For example, the
delayed work plan (WP) approval was by design and consent of all the key
stakeholders. As noted above, this body of stakeholders included the
Department of State, USDA, U.S. military and coalition forces, GIROA (i.e.,
Provincial Governor and District level-office of the Ministry of Agriculture,
Irrigation, and Livestock), and USAID. In accordance with standard USAID
practice, work commenced under an approved interim work plan. As part of
the fmal work plan approval process, the following protocol was observed by
stakeholders:
       a. In September 2011, RC-South organized a technical working group
          (consisting of the stakeholders highlighted above) to formalize the
          work plan to be implemented under S-RAD.
       b. The working group met regularly from September to December
          2011 , and considered numerous options. An interim work plan was
          in place during that time.
       c. After four months of deliberations, the final work plan was approved
          by USAID/Kabul.
       d. As a "living document," the work plan evolved with rapidly
          changing circumstances and priorities dictated by the operating
          environment. For example, the initial S-RAD design did not
                                     -5-
         envision establishing new cold storage facilities; however, S-RAD
         identified emerging opportunities to export pomegranates overseas
         that caused considerable excitement among USG and Afghan
         stakeholders. As there was consensus among key stakeholders of
         the need for a cold storage facility near the Kandahar airfield, the
         work plan was modified to seize this opportunity which led to the
         construction of a cooling tent. In sum, given the security, the
         importance of Afghan engagement and ownership, and other aspects
         of the operating environment, the work plan could not be rigid. It
         had to be malleable in nature in order to account for real time
         adjustments.
      e. The consultative work plan process was intended to promote
         participation and transparency.

Equipment and Supplies

  •   "The USAID Agreements Officer retroactively approved IRD's
      purchase ofthe four-wheel tractors without any documented
      explanation regarding why the decision was made to allow IRD to
      purchase the more expensive tractors." (SIGAR Alert Letter, p.2/3).

  • " ... at least one third ofthe 95 tractors...that were distributed in
    Kandahar could not be located." (SIGAR Alert letter, p.3)

  • Solar Panels - The letter highlights solar panels under the rubric
    "IRD's Coordination and Execution of Certain project Activities Was
    Ineffective." (SIGAR letter p. 3)

  •   "The USAID senior development officer and Department of
      Agriculture advisor also objected to instituting a sapling distribution
      program under the S-RAD, citing in a September 2011 "whitepaper"
      the major problems experienced during the A VIPA-Plus program."
      (SJGAR Alert Letter, p. 4).

  • "We also reviewed an irrigation pump distribution project initiated
    under the A VIPA -Plus program in Helmand province and later
    transferred to the S-RAD program. This review revealed instances of
    gross mismanagement••. Neither USAID nor IRD officials were able
    to explain how they determined that Helmand province needed 16,000
    irrigation pumps and acknowledged that they had not conducted a
    capability needs assessment" (SIGAR Alert Letter, p. 4).
                                                - 6-

    • "We also found that IRD did not conduct an environmental
      assessment until after the irrigation pumps had already been
      purchased. This was inconsistent with title 22, US Code ofFederal
      Regulations, Part 216, which requires that an environmental
      assessment be done during the project's planning phase. "(SIGAR
      Alert Letter, p. 4)

USAID's Response: USAID disagrees with SIGAR's assertions.

These assertions are either inconsistent with the facts or do not take into
account all the facts. Both four- and two-wheel tractors were specified in the
program description of the Cooperative Agreemen~.

The SIGAR assertion that tractors could not be located does not prove any
actually are missing. The Afghan farmers who are most vulnerable and least
resilient to crop failures and income losses also live in some of the most
remote areas where farmer cooperatives are prevalent. GIRoA, USAID's
partner, distributed the larger tractors purchased under S-RAD to farmer
cooperatives in accordance with protocols established following broad
consultations with local government officials. Some of these tractors are
located in isolated places hard to reach for logistical and security reasons.

USAID would be happy to respond to questions about solar panels if SIGAR
would provide specifics. It is nonetheless important to note the following:

    • In a country with unreliable or no electricity supply in rural areas, and
      increasing cost of operating diesel generators, solar technology is
      viewed widely as a viable alternative. The solar panels are affordable
      and easy to maintain and improve overall community quality of life by
      providing electricity to enable longer trading hours for village
      shopkeepers, the ability to refrigerate critical temperature-sensitive
      items, such as animal vaccines, as well as evening studies for students.
      S-RAD provided 600 solar power units to small business owners in
      Kandahar and Helmand who were willing and able to make a 20
      percent copayment and participate in training on the operation and
      maintenance of the system. When IRD became aware that some
      beneficiaries were submitting fraudulent identifying documents, it
      suspended the program in Dand, Garmser and Nawa districts. In Dand,
      IRD officials took corrective action when they became aware some
      business owners were installing the panels in their homes, rather than


2 Cooperative Agreement for S-RAD dated August27, 201 1 (sec page 41)
                                                 - 7-

        businesses, as intended. In most cases, distribution of solar panels
        resumed once new beneficiaries were selected. 3

To put the tree sapling distribution activity in context, S-RAD was as a
stabilization program designed to support the counterinsurgency strategy in
the south. An outcome of the strategy was the destruction of or severe
damage to orchards. As a part of an effort to stabilize the region, assessments
were conducted by agronomists, horticulturalists and value chain experts that
led to S-RADs' tree sapling distribution technical element. In addition, IRD
                                                                          4
performed a survey of sapling distribution efforts begun under A VIPA which
led, among other things, to the restoration and rehabilitation of pre-existing
fruit and nut orchards critical to the livelihoods of rural people. The survey
found the survival rate of the trees and increased yields from improved
orchard management practices were high enough to justify continuing to
supply saplings. More than one million fruit and nut saplings were planted
that rehabilitated orchards and benefited more than 5,000 farmers. Also, since
the saplings were purchased at local Ministry of Agriculture-certified
nurseries, the local economy benefitted.

Concerning how the need for 16,000 irrigation pumps was determined, it is
important to note that increasing the area of irrigated land is critical to
Afghanistan's future. Neglect and destruction of irrigation structures during
decades of war have reduced Afghan cultivated land from three million
hectares to 1.6 million hectares. In Helmand, farmers at the tail end of canals
suffer from unreliable water supplies for irrigation. The pumps were intended
to increase access to water and bring more land into production. To determine
the demand for pumps, A VIPA field teams consulted with stakeholders in the
AVIPA Plus5 target districts. Furthermore, a needs assessment survey it
conducted revealed a demand for 16,000 pumps (OAG Status Report of
A VIPA Pump/Power Unit Distribution Status, August 17, 2011).

S-RAD assessed the best use of the undistributed pumps once AVIPA-Plus
ended. Following extensive droughts, a number of studies found the pumps
would aggravate water shortages. Based on the findings from the
environmental assessment and other studies, S-RAD distributed some pumps
to carefully selected districts in order to minimize damage to the environment.
After broad consultations with USG and Afghan stakeholders and careful
deliberations over reports experts prepared, and in light of the potential for

3 S-RAD Final Report January 15, 2013, page 43
4 Afghanistan Vouchers for Increased Production in Agriculture (AVIPA} Program is the predecessor
program to S-RAD
5 Afghanistan Vouchers for Increased Production in Agriculture (A VIPA) Plus Program expanded objectives
to the original A VIPA Program
                                               -8-
serious environmental damage, and limited electricity supply, USAID
considered it reasonable to repurpose and distribute the remaining pumps as
power supply units. Among other uses, they generated electricity that
powered job creating enterprises in welding, flour milling, and post-harvest
handling for high value crops.6 Concerning SIGAR's assertion that the Initial
Environment Examination (lEE, Reg. 216) was not done by IRD, it should be
noted that the pumps were purchased under AVIPA Plus. There is an
approved lEE and subsequent amendments for A VIPA Plus dated May 30,
2008; May 3, 2009; and July 13, 2010, respectively. USAID acknowledges
that even though S-RAD was a follow-on bridging activity, it too required an
lEE, which was not done quickly enough. On September 19,2012, USAID
corrected the oversight and completed an lEE. This responsibility was
USAID's; it was not IRD' s, as erroneously stated in the alert letter.

    • "We also found that one ofthe USAID officials involved in
      facilitating the approval process ofthe work plan was a former IRD
       employee who joined USAID in July 2011-1 month prior to the
      award of the cooperative agreement This individual performed these
      functions despite signing a recusalletter and receiving guidance from
      the USAID Senior Regional Legal Advisor precluding substantial
      involvement with any programs conducted by his former employer-
      IRD-for a period of 12 months after joining USA/D." (SIGAR Alert
      Letter, p. 5-6).
USAID's Response: Although we found no evidence of wrongdoing by the
employee, within one week of the alleged appearance of conflict-of-interest
coming to USAID's attention, USAID/Kabul re-assigned the individual in
question to another platform.

USAID appreciates our ongoing collaboration.

                                                Sincerely,

                                                ~"'                  1...J~-(.<~.­
                                                Donald Sampler
                                                Acting Assistant to the Administrator
                                                Office of Afghanistan and Pakistan
                                                Affairs

6 Water Pumps Revised Distribution Plan Helmand, A VIPA PLUS, IRD, January 13, 201 1 Environmental
Assessment for Water Pumps Revised Distribution Plan Helmand", A VIP A PLUS, IRD, February 2011;
Lcner to H.E. Mohammad Gulab Mangal, Governor ofHelmand Province, Lashkar Gah, dated 7 June 2011,
signed by the USA!D Mission Director]
                                   -9-




cc:

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
